No. _____________________
IN THE
SUPREME COURT OF THE UNITED STATES
TYSLEN J. BAKER,

PETITIONER

V.
UNITED STATES OF AMERICA,

RESPONDENT

PETITIONER TYSLEN J. BAKER’S MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

/s/ Michael T. Lee
McCarroll, Nunley, Hartz & Lee
922 Triplett Street, Suite 4
P.O. Box 925
Owensboro, KY 42302
(270) 683-5001(telephone)
(270) 926-6056(facsimile)
mtleepllc@bellsouth.net
Counsel for Tyslen J. Baker

1

Comes the Petitioner, Tyslen Baker, by counsel, and moves the Court for leave
to proceed In Forma Pauperis in this action, and in support of that request, states as
follows:
1.

Petitioner Tyslen Baker, pursuant to Supreme Court Rule 39, seeks

leave to proceed In Forma Pauperis.
2.

This matter arises out of a criminal prosecution of Tyslen Baker in the

United States v. Tyslen J. Baker, Case Number 4:17-CR-00007-JHM, filed in the
United States District Court for the Western District of Kentucky. In the District
Court matter, Petitioner was appointed counsel pursuant to the Criminal Justice Act
of 1964, 18 USC §3006. See Exhibit A.
3.

That appointed counsel continued said representation during all

proceedings conducted before the United States Sixth Circuit Court of Appeals. See
Exhibit B. Thus, Petitioner had the benefit of appointed counsel in both the District
and Circuit Court proceedings. Thus, no affidavit or declaration from Mr. Baker is
attached to this Motion.
4.

The Petitioner now asks that the Court allow him to proceed In Forma

Pauperis in the United States Supreme Court. Petitioner further seeks a waiver of
the $300.00 docket fee pursuant to Supreme Court Rules 38 and 39.
For the reasons stated herein above, the Petitioner respectfully moves the
Court to allow him to proceed In Forma Pauperis and waive the $300.00 docket fee.

2

This the 22nd of February, 2021.
/s/ Michael T. Lee
McCarroll, Nunley, Hartz & Lee
922 Triplett Street, Suite 4
P.O. Box 925
Owensboro, KY 42302
(270) 683-5001(telephone)
(270) 926-6056(facsimile)
mtleepllc@bellsouth.net
Counsel for Tyslen J. Baker

3

